<html>
<title> - LEGISLATIVE HEARING ON H.R. 4791, THREE DRAFT BILLS, AND A PROPOSED AMENDMENT TO H.R. 3082 THURSDAY, APRIL 27, 2006 U.S. HOUSE OF REPRESENTATIVES, SUBCOMMITTEE ON ECONOMIC OPPORTUNITY, COMMITTEE ON VETERANS' AFFAIRS, Washington, D.C. The Subcommittee met, pursuant to call, at 1:36 p.m., in Room 334, Cannon House Office Building, Hon. John Boozman [Chairman of the Subcommittee] presiding. Present: Representatives Boozman, Brown-Waite, Herseth, and Hooley. MR. BOOZMAN. The meeting will be in order. Today we are going to receive testimony on two bills, an amendment for H.R. 3082 and H.R. 4791, as well as three draft bills. The proposed amendment is for bill I introduced earlier in the session, H.R. 3082, and would provide new tools and procedures for VA contracting officers to enable them to do more business with veteran and disabled veteran entrepreneurs and put veteran businesses at the head of the line for small business set- asides. Given this new set of acquisition tools, there will be no reason for VA not to meet the veteran and service-disabled veteran small business contracting goals. I expect the Department to make a significant effort to ensure that its contracting officers understand that we are serious about this and are giving them a chance to perform. H.R. 4791 is Ms. Herseth's bill to increase Adapted Housing Grant amounts, and I will recognize her in a moment to explain its provisions. One draft bill focuses on improving the State Grant Program for Disabled Veterans Outreach Program Specialists and Local Veteran Employment Representatives by setting hiring and retention guidelines, improving reporting of employment data, setting certain requirements for grants, implementing a pilot contract program in areas of high veteran unemployment, and revising the current Incentive Award Program. Another draft proposed by Ms. Brown-Waite seeks to improve licensing and certification for those coming out of the military. And I will also ask her to explain her bill. Finally, we have a draft bill to begin the process of modernizing the GI Bill Education Benefit Program. One of the things we have found is that about 30 percent of veterans never use their educational benefit because they do not want to attend traditional degree programs or cannot spend two to four years in schools because of circumstances. Therefore, the draft focuses on improving the usefulness of the GI Bill for the 30 percent of veterans who do not use the program by increasing the types of training courses eligible for accelerated benefits. The draft also improves work study, equalized monthly payments for certain students, and requires VA to provide a report on streamlining administration. I feel strongly that many of the restrictive rules and regulations in the current program need to be eliminated or significantly modified where possible as long as we do not open the program to waste, fraud, and abuse. I take Mr. Steve Kime's observation at our Arkansas field hearing to heart that current rules and regulations treat all schools and veterans like potential lawbreakers. We spend so much time and resources trying to screen out possible problems that we negatively impact service to our veterans. And certainly it is not right to go too far. That situation is not a good situation. We can use technology to maintain the integrity of the program, improve timeliness, education benefits for prime candidates, for rules-based processing. And I intend to have a conversation with VA leadership about increasing the investment in that type of information technology to speed up processing. Regarding the Draft Education Bill, I felt we needed to begin exploring ideas and potential cost. And I want to make sure that everyone understands that it is not a finished product by any means. The eventual changes will likely cost a significant amount of money and we must do this right to get the most effective use of taxpayer funds. I understand the DoD/VA GI Bill Working Group will report to the Joint Executive Council in July, and the Armed Services Committee is also taking a hard look at the issue. We will work with the VA/DoD Working Group not for the quickest change but for the best. I now recognize our Ranking Member, Ms. Herseth, for her opening remarks. MS. HERSETH. Well, thank you, Mr. Chairman. Good afternoon to you and to those who have joined us today. I want to thank you for holding this legislative hearing. I very much appreciate your efforts as I have stated in the past, but I do not think it can be stated often enough of your willingness and the work of our staffs to conduct our Subcommittee in a very bipartisan and effective manner. I also appreciate your flexibility in scheduling that allows us to attempt to participate in all of the events that we have going on throughout the week when we are in session. Like you, Mr. Chairman, I also want to welcome the witnesses today and look forward to receiving their views and insights and responses to some of our questions on the many bills we have before the Subcommittee. I am particularly pleased that we have included in today's agenda House Resolution 4791, the Disabled Veterans Adapted Housing Improvement Act, a bill that I introduced along with a number of my colleagues earlier this year. The bill would increase the amounts available for adapted housing grants for certain disabled veterans. It would also establish an index that reflects a uniform national average annual increase in the cost of residential home construction so that the future disabled veterans eligible for this grant would continue to maintain their purchasing power. Additionally, I am pleased we are examining other measures aimed at enhancing the VA's ability to contract with veteran-owned small business owners and improving employment services and job training opportunities for veterans seeking employment and providing more flexibility to the Montgomery GI Bill. Nearly 200,000 servicemembers separate from military service each year. These men and women who have given their best in defense of the nation deserve our best efforts here in the Congress. Indeed, after protecting and sustaining our freedom and our way of life, they and their families have earned the right to live the American dream. And many of these initiatives that we will be talking about today facilitate the ability to meet and live that dream. So, Mr. Chairman, I appreciate the witnesses' views and their efforts to assist us in crafting effective legislation. I know that we will use the testimony to guide us in making some helpful and reasonable improvements in the measures before us. So thank you, and I yield back. MR. BOOZMAN. Thank you. Ms. Hooley. MS. HOOLEY. Thank you, Mr. Chair and Ranking Member, for holding these hearings today. I, too, am excited about the legislation that is before us. And since my election, one of my priorities have been to make sure that veterans and their spouses get what they so richly deserve. I really believe the federal government has a debt of honor to pay back all the veterans and I will continue to fight to make sure that American veterans receive the benefits which they so clearly deserve in return for their service to the nation and its people. The bills we are considering today are important and they are common-sense measures that will not only improve the lives of our veterans but keep the promise our nation made to take care of them. Proposals like increasing benefits for our disabled veterans to adapt their houses to fit their needs, very important, or initiatives to help veterans with their employment, be it a veteran-owned small business trying to get its foot in the door or placement programs for disabled veterans. But I am particularly pleased to see the Subcommittee considering draft legislation that would provide great flexibility to our veterans as they use our education benefits that they have earned under the Montgomery GI Bill. Too many of our veterans find claiming and using their earned education benefits to be a cumbersome process filled with red tape, and this draft legislation will hopefully make it a little a little easoier for them to get the education they need. However, there is one issue, and I hope both the Chair and the Ranking Member pay attention, that has not been addressed. It is something I believe to be a harsh penalty upon our veterans and I hope it can be fixed. Under current law, once a soldier has been separated from service, he or she only has ten years to use that education benefit or they lose it. I do not think this is right. It is a program that they paid into and they cannot reclaim their own money if they do not enroll in school before the ten years are up. Currently only 57 percent of soldiers who pay into the GI Bill Fund actually use their earned education benefits within that time frame. And what I found is there are some young people that have come back from the service and in some cases, they need help. They do not know what they are going to do. They do not know where they are going. Sometimes they have mental health problems. Sometimes they have drug problems. And at about 30, they decide, gee, I think I want to go back to school only to find out they cannot use the benefits. So I think something is wrong with that system, and hopefully we will look at that in this particular piece of legislation. And, again, I think these veterans should be able to reclaim their education benefits whenever they are ready to attend school and it is long past the time to repeal this outdated ten- year limit. Mr. Chairman, Ranking Member Herseth, I look forward to working with both of you to address this issue as we continue to look at ways to make the GI Bill more flexible and education benefits more accessible to our veterans, and look forward to our panel today. Thank you. MR. BOOZMAN. Thank you, Ms. Hooley. And we certainly were paying attention. MS. HOOLEY. Okay. MR. BOOZMAN. Our first</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]




 
LEGISLATIVE HEARING ON H.R. 4791, THREE DRAFT BILLS, AND A PROPOSED AMENDMENT 
TO H.R. 3082


THURSDAY, APRIL 27, 2006

U.S. HOUSE OF REPRESENTATIVES,     
SUBCOMMITTEE ON ECONOMIC OPPORTUNITY,
COMMITTEE ON VETERANS' AFFAIRS,
Washington, D.C.

The Subcommittee met, pursuant to call, at 1:36 p.m., in Room 334, Cannon House 
Office Building, Hon. John Boozman [Chairman of the Subcommittee] presiding.
Present:  Representatives Boozman, Brown-Waite, Herseth, and Hooley.

MR. BOOZMAN.  The meeting will be in order.  Today we are going to receive 
testimony on two bills, an amendment for H.R. 3082 and H.R. 4791, as well as 
three draft bills.

The proposed amendment is for bill I introduced earlier in the session, H.R. 
3082, and would provide new tools and procedures for VA contracting officers to 
enable them to do more business with veteran and disabled veteran entrepreneurs 
and put veteran businesses at the head of the line for small business set-
asides.

Given this new set of acquisition tools, there will be no reason for VA not to 
meet the veteran and service-disabled veteran small business contracting goals.  
I expect the Department to make a significant effort to ensure that its 
contracting officers understand that we are serious about this and are giving 
them a chance to perform.

H.R. 4791 is Ms. Herseth's bill to increase Adapted Housing Grant amounts, and I 
will recognize her in a moment to explain its provisions.
One draft bill focuses on improving the State Grant Program for Disabled 
Veterans Outreach Program Specialists and Local Veteran Employment 
Representatives by setting hiring and retention guidelines, improving reporting 
of employment data, setting certain requirements for grants, implementing a 
pilot contract program in areas of high veteran unemployment, and revising the 
current Incentive Award Program.

Another draft proposed by Ms. Brown-Waite seeks to improve licensing and 
certification for those coming out of the military.  And I will also ask her to 
explain her bill.

Finally, we have a draft bill to begin the process of modernizing the GI Bill 
Education Benefit Program.  One of the things we have found is that about 30 
percent of veterans never use their educational benefit because they do not want 
to attend traditional degree programs or cannot spend two to four years in 
schools because of circumstances.

Therefore, the draft focuses on improving the usefulness of the GI Bill for the 
30 percent of veterans who do not use the program by increasing the types of 
training courses eligible for accelerated benefits.  The draft also improves 
work study, equalized monthly payments for certain students, and requires VA to 
provide a report on streamlining administration.

I feel strongly that many of the restrictive rules and regulations in the 
current program need to be eliminated or significantly modified where possible 
as long as we do not open the program to waste, fraud, and abuse.

I take Mr. Steve Kime's observation at our Arkansas field hearing to heart that 
current rules and regulations treat all schools and veterans like potential 
lawbreakers.  We spend so much time and resources trying to screen out possible 
problems that we negatively impact service to our veterans.  And certainly it is 
not right to go too far.  That situation is not a good situation.

We can use technology to maintain the integrity of the program, improve 
timeliness, education benefits for prime candidates, for rules-based processing.  
And I intend to have a conversation with VA leadership about increasing the 
investment in that type of information technology to speed up processing.
Regarding the Draft Education Bill, I felt we needed to begin exploring ideas 
and potential cost.  And I want to make sure that everyone understands that it 
is not a finished product by any means.  The eventual changes will likely cost a 
significant amount of money and we must do this right to get the most effective 
use of taxpayer funds.

I understand the DoD/VA GI Bill Working Group will report to the Joint Executive 
Council in July, and the Armed Services Committee is also taking a hard look at 
the issue.  We will work with the VA/DoD Working Group not for the quickest 
change but for the best.

I now recognize our Ranking Member, Ms. Herseth, for her opening remarks.
MS. HERSETH.  Well, thank you, Mr. Chairman.  Good afternoon to you and to those 
who have joined us today.  I want to thank you for holding this legislative 
hearing.

I very much appreciate your efforts as I have stated in the past, but I do not 
think it can be stated often enough of your willingness and the work of our 
staffs to conduct our Subcommittee in a very bipartisan and effective manner.
I also appreciate your flexibility in scheduling that allows us to attempt to 
participate in all of the events that we have going on throughout the week when 
we are in session.

Like you, Mr. Chairman, I also want to welcome the witnesses today and look 
forward to receiving their views and insights and responses to some of our 
questions on the many bills we have before the Subcommittee.

I am particularly pleased that we have included in today's agenda House 
Resolution 4791, the Disabled Veterans Adapted Housing Improvement Act, a bill 
that I introduced along with a number of my colleagues earlier this year.
The bill would increase the amounts available for adapted housing grants for 
certain disabled veterans.  It would also establish an index that reflects a 
uniform national average annual increase in the cost of residential home 
construction so that the future disabled veterans eligible for this grant would 
continue to maintain their purchasing power.

Additionally, I am pleased we are examining other measures aimed at enhancing 
the VA's ability to contract with veteran-owned small business owners and 
improving employment services and job training opportunities for veterans 
seeking employment and providing more flexibility to the Montgomery GI Bill.
Nearly 200,000 servicemembers separate from military service each year.  These 
men and women who have given their best in defense of the nation deserve our 
best efforts here in the Congress.  Indeed, after protecting and sustaining our 
freedom and our way of life, they and their families have earned the right to 
live the American dream.  And many of these initiatives that we will be talking 
about today facilitate the ability to meet and live that dream.
So, Mr. Chairman, I appreciate the witnesses' views and their efforts to assist 
us in crafting effective legislation.  I know that we will use the testimony to 
guide us in making some helpful and reasonable improvements in the measures 
before us.

So thank you, and I yield back.

MR. BOOZMAN.  Thank you.

Ms. Hooley.

MS. HOOLEY.  Thank you, Mr. Chair and Ranking Member, for holding these hearings 
today.  I, too, am excited about the legislation that is before us.  And since 
my election, one of my priorities have been to make sure that veterans and their 
spouses get what they so richly deserve.

I really believe the federal government has a debt of honor to pay back all the 
veterans and I will continue to fight to make sure that American veterans 
receive the benefits which they so clearly deserve in return for their service 
to the nation and its people.

The bills we are considering today are important and they are common-sense 
measures that will not only improve the lives of our veterans but keep the 
promise our nation made to take care of them.
Proposals like increasing benefits for our disabled veterans to adapt their 
houses to fit their needs, very important, or initiatives to help veterans with 
their employment, be it a veteran-owned small business trying to get its foot in 
the door or placement programs for disabled veterans.

But I am particularly pleased to see the Subcommittee considering draft 
legislation that would provide great flexibility to our veterans as they use our 
education benefits that they have earned under the Montgomery GI Bill.

Too many of our veterans find claiming and using their earned education benefits 
to be a cumbersome process filled with red tape, and this draft legislation will 
hopefully make it a little a little easoier for them to get the education they 
need.  However, there is one issue, and I hope both the Chair and the Ranking 
Member pay attention, that has not been addressed.  It is something I believe to 
be a harsh penalty upon our veterans and I hope it can be fixed.

Under current law, once a soldier has been separated from service, he or she 
only has ten years to use that education benefit or they lose it.  I do not 
think this is right.  It is a program that they paid into and they cannot 
reclaim their own money if they do not enroll in school before the ten years are 
up.

Currently only 57 percent of soldiers who pay into the GI Bill Fund actually use 
their earned education benefits within that time frame.

And what I found is there are some young people that have come back from the 
service and in some cases, they need help.  They do not know what they are going 
to do.  They do not know where they are going.  Sometimes they have mental 
health problems.  Sometimes they have drug problems.  And at about 30, they 
decide, gee, I think I want to go back to school only to find out they cannot 
use the benefits.

So I think something is wrong with that system, and hopefully we will look at 
that in this particular piece of legislation.  And, again, I think these 
veterans should be able to reclaim their education benefits whenever they are 
ready to attend school and it is long past the time to repeal this outdated ten-
year limit.

Mr. Chairman, Ranking Member Herseth, I look forward to working with both of you 
to address this issue as we continue to look at ways to make the GI Bill more 
flexible and education benefits more accessible to our veterans, and look 
forward to our panel today.

Thank you.

MR. BOOZMAN.  Thank you, Ms. Hooley.  And we certainly were paying attention.

MS. HOOLEY.  Okay.

MR. BOOZMAN.  Our first -- 

MS. HOOLEY.  You always do, by the way.

MR. BOOZMAN.  Thank you.

Our first panel includes the Honorable Gordon Mansfield, Deputy Secretary of the 
Department of Veterans' Affairs.

And it seems like yesterday I had won a special election and went over and asked 
to be on the Veterans' Affairs Committee.  Went over and Gordon gave me a little 
pin, a little challenge coin, and he said, Congressman, you are going to get a 
lot of these, but I want to give you the first one that you get.  And it was 
very neat, and we appreciate all that you are doing.

Also, we are very pleased to have the Honorable Charles Ciccolella, Assistant 
Secretary of Labor for Veterans' Employment and Training, and Mr. Donald Ingram, 
Chairman of the Veterans' Committee for the National Association of State 
Workforce Agencies.

Secretary Mansfield.


STATEMENTS OF GORDON MANSFIELD, DEPUTY SECRETARY, DEPARTMENT OF VETERANS 
AFFAIRS; ACCOMPANIED BY JACK MCCOY, ASSOCIATE DEPUTY UNDER SECRETARY FOR 
POLICY AND PROGRAM MANAGEMENT, VETERANS BENEFITS ADMINISTRATION; SCOTT F. 
DENNISTON, DIRECTOR, OFFICE OF SMALL BUSINESS AND DISADVANTAGED BUSINESS 
UTILIZATION, DEPARTMENT OF VETERANS AFFAIRS; CHARLES CICCOLELLA, 
ASSISTANT SECRETARY FOR VETERANS' EMPLOYMENT AND TRAINING, DEPARTMENT OF 
LABOR; DONALD INGRAM, VETERANS' AFFAIRS COMMITTEE CHAIRMAN, NATIONAL 
ASSOCIATION OF STATE WORKFORCE AGENCIES

STATEMENT OF GORDON MANSFIELD

MR. MANSFIELD.  Thank you, Mr. Chairman and Ranking Member Herseth and member 
Hooley.

Accompanying me today are Scott Denniston, our Director of the Office of Small 
and Disadvantaged Business Utilization, my expert advisor and advocate in that 
area, and Mr. Jack McCoy, the Associate Deputy Under Secretary for Policy and 
Program Management at VBA where we administer these important benefit programs.
I would request that my written statement be submitted for the record and make 
the point that I am here today to present the Administration's views on several 
proposed measures which would affect VA programs and benefits and services and 
make the point that any support that VA expresses for particular provisions is 
contingent on accommodating the provisions within the President's budget.
Mr. Chairman, it struck me as I was sitting here waiting for the hearing to 
begin that this is really important because you are the inheritor, this 
Subcommittee, you are the inheritor of the GI Bill from World War II which was 
the vehicle that I believe, and I know, Mr. Chairman, you have expressed this 
too, that really built the middle class of the United States of America, 
advanced us in education and advanced us in housing.

And two of those issues are being brought forward again today as this Committee 
continues to do its excellent work on a bipartisan basis to advance the needs 
and the earned benefits of America's veterans.  I want to thank you on behalf of 
Secretary Nicholson and myself and the VA for your continued excellent work in 
that area.

I want to make a couple of comments on some of the bills.  And as I said, my 
statement for the record goes into some detail.

We support improved access to education and veterans' earned benefits, be they 
efforts to better use technology or to streamline administrative processes.  And 
I would urge the Subcommittee to consider these improvements while not adversely 
impacting entitlement.

I am concerned that the GI Bill Flexibility Act introduces a concept of 
authorizing greater payments for service-disabled veterans or other veterans in 
the same chapter, and there is some concern about that.

Vocational rehabilitation and employment services are available under Chapter 31 
for eligible service-disabled veterans for whom Montgomery GI Bill benefits are 
insufficient for a proper readjustment to civilian life.  So, therefore, VA 
would oppose Section 2 of that bill.  The other concerns in that area are 
outlined in my written statement.

VA also cannot support Section 3 of a draft bill exempting federal, state, or 
local government institutions from certain refund provisions.  Veterans should 
not be disadvantaged because the institution involved is a government entity or 
supported with government funds.  If veterans meet the requirements and withdraw 
after proper notification and within the context of the applicable regulations 
of the program or the university, they should not be penalized.

Under the determination of full- or part-time status, we understand that Section 
4 is intended to ease certain administrative burdens.  VA supports that goal and 
offers to consult with the Subcommittee staff and assist, as a technical 
service, in crafting appropriate language.

In the area of extension of work-study activities for veterans, we believe that 
extending work-study opportunities for veteran students and eligible dependents 
to assist with the TAP and DTAP Program is a productive idea, but such students 
should not provide employment assistance briefings unless they have the required 
specialized training and/or certification that may be required in this area.
In the area of reports on the improvement and administration of educational 
assistant benefits, we would beg the Committee's attention that the time element 
in the current bill may not be enough.  Given the complexity of our education 
programs, we would have no objection if this were extended to six months in 
which to submit the required report.

In restoration of lost entitlement for those who are ordered to full-time 
National Guard duty, Section 7 would restore entitlement to Chapter 35 to 
certain National Guardsmen ordered to duty after September 11th, 2001.
The VA would recommend that that date be used as the effective date to determine 
how far back in time Title 32 service could occur.  As I understand it, that 
would comport with other titles within the Federal Code.

Regarding specially-adapted housing, Section 2 of House Resolution 4791 would 
increase the amounts of assistance available.  VA would support the increases 
proposed by Section 2.  However, we would oppose the indexing proposal and would 
make the point that the Administration believes that any indexing proposal 
should be in conformity across the entire Executive Branch, not singled out 
individually.

And also VA believes that there was an inadvertent omission of an amendment to 
allow us to be able to extend this program to active-duty personnel, and we 
request that it be reinstated.

In small business issues, the Secretary is committed to veteran-owned small 
businesses.  He will continue to make procurement contracts with this deserving 
and able group a priority in the department.  I, too, support that vision and 
his commitment to this important goal.

And I can tell you that I made this issue a reportable item for the VA's monthly 
reporting requirement and would also make the point that I now require in 
addition to the previous departmental levels, that it be broken down into the 
specific administrations or offices. I can also make the report, Mr. Chairman 
and members, that we had such a report this morning I can tell you that we 
continue to do well.  We have targets that we are striving to meet and we are 
doing a better job.  Mr. Denniston and his folks have been instrumental in 
allowing us to do that.

So, we would support amendments to House Resolution 3082.  However, there are 
some minor changes fully noted in my written testimony that we would request be 
made.  And, again, we would be more than happy to provide technical assistance.
Again, in the area of quarterly reports, we would request a revision to require 
annual reporting.  This again would put it in line with other reports that we 
understand that our contracting partners, those that are doing this have to do, 
the prime contractors in many cases, and would allow us not to put an additional 
burden on folks who we are asking to meet us in this important goal.

Mr. Chairman, I would just make the point that we appreciate again your efforts 
to move forward in these areas.  We are very supportive and would make every 
effort to provide whatever assistance my staff can to yours as we move forward.
Thank you very much.

MR. BOOZMAN.  Thank you very much, Mr. Secretary.

[The statement of Gordon Mansfield appears on p. 48]

MR. BOOZMAN.  Mr. Ciccolella.

STATEMENT OF CHARLES CICCOLELLA

MR. CICCOLELLA.  Thank you very much, Mr. Chairman, Ranking Member Herseth, and 
Congresswoman Hooley, and Congresswoman Brown-Waite.  I want to thank you for 
the opportunity to appear before the Committee to testify on the two bills that 
impact the Veterans' Employment and Training Service.

And I want to say from the outset that the legislation contains some very 
positive ideas and we appreciate the Committee's bipartisan work in coming up 
with these bills.

We do feel it is important to point out some of the issues which come to mind 
with regard to implementation of these provisions so that the Committee is aware 
of them.  And my written testimony contains some of those issues, at least the 
ones that we have identified so far.  And we look forward to working with the 
Committee on those provisions.

Let me begin with a few particulars.  With regard to Section 2 of the Veteran 
State Employment Grant Improvement Act, that requires the Secretary of Labor to 
maintain guidelines for States and establishing the professional qualifications 
required for determining both the eligibility and the continued employment of 
the veteran employment representatives, the DVOPs and LVERs.

And we say that we agree with this idea in principle.  However, since the States 
already have standards in place for selecting their DVOPs and LVERs, I think the 
selection criteria would probably be pretty general, the ones that we prescribe.
The continuing employment requirements could be accomplished through the 
National Veterans Training Institute and, of course, should be implemented 
through the DVOP and LVER performance plans.  We would also want to coordinate 
any guidelines that we come up with with the National Association of State 
Workforce agencies.

Now, we already have NVTI working in this direction and that is moving along 
very nicely.  There will necessarily be additional cost associated with this 
effort, certainly potentially with the States because they classify their merit 
staff positions.

So that could impact the numbers of DVOPs and LVERs if the JVA grant is not 
increased.  And it would also definitely require more funds for NVTIs.  You know 
that budget has been pretty well level funded at $2 million.

With regard to Section 3, that defines the DVOP, LVER part-time work provision 
as meaning not less than half-time basis.  In other words, performing those 
duties on a not less than half-time basis.

We think it is necessary to have a clear standard on this and we know what the 
intent was in the Jobs for Veterans Act that part time means half time.  We feel 
that that policy should be continued so that the States are not confused and so 
that we do not have a significant tracking issue with regard to the 
accountability of the time for the DVOP and LVER.

With regard to Section 4, that requires the States to establish local 
performance information system within three years following enactment.  We 
totally support that provision and believe it should come on line at the same 
time that the Department of Labor introduces its new reporting system.
Meanwhile, between now and then, we are working with the States to look at what 
information can be obtained with regard to outcomes and what the cost may be 
associated with those States in so doing that.  The GAO identified some 21 
States where it was difficult for the State to obtain that information.  So we 
are working with that already.

In Section 5, that establishes the State licensing and certification programs 
for veterans.  I think that is absolutely a step in the right direction.  They 
probably need a little bit of time to think through that in terms of the impact 
on the States.  And we are absolutely ready to work with the Committee in that 
regard.

Section 6 requires that newly-hired DVOPs and LVERs be training at the National 
Veterans Training Institute within three years after they are hired and extends 
the training to existing employees.  We can do that more practically if we 
recognize that the training is done by NVTI as opposed to at NVTI because it is 
more economical to send the NVI team, for example, to Florida to train 30 or 40 
people than it is to send those people to Denver.

The other thing is that NVTI again needs to be funded accordingly because the 
demand for NVTI training right now is very high and it is also impacted by the 
annual turnover of the DVOPs and the LVERs.  That annual turnover runs about 15 
percent.  So if you look at a three-year period, there is a backlog of training 
that is required for the DVOPs and LVERs as we have it right now.

With regard to Section 7, it establishes the demonstration project on 
contracting for placement of veterans in high unemployment areas.  We do not 
think that provision is needed.  States conduct their own analyses of the 
workforce areas and they have the capability to determine how and where best to 
use their resources.  We would certainly be involved in that and want to be 
involved in that through our State Directors of Veterans' Employment and 
Training.

With regard to Section 8, which modifies the incentive awards that were 
established under the Jobs for Veterans Act, we totally support that measure.  
We just believe that the Assistant Secretary should be the final authority on 
it.

With regard to Section 9, which requires DoL, the Department of Labor, to 
publish regulations implementing priority of service, we understand it is a very 
important issue with the Committee.  We do not believe that regulations are 
necessary because we believe that priority service is best implemented through 
policy.

On the second proposed bill, which is the Veterans Certification and Licensure 
Act of 2006, the Department of Veterans' Affairs already has a Committee that is 
established and is looking at that issue.  And I know that that Committee is 
doing some very good work.

I have thought about this for a long time with regard to whether it makes sense 
to form another Committee to look at this because a lot of Committees have been 
formed to look at licensing and certification and making that path smoother from 
the military to those civilian occupations, but not a lot has been done over the 
years in that regard.

So I have some ideas on that that I would be happy to discuss during the 
question and answer period because I know my time is limited here.  And we will 
defer to the VA and support them on the GI Bill Flexibility Act and the Veteran-
Owned Small Business Promotion Act.

And with that, Mr. Chairman, I am prepared to answer your questions.

MR. BOOZMAN.  Thank you, sir.

[The statement of Charles Ciccolella appears on p. 61]

MR. BOOZMAN.  Mr. Ingram.

STATEMENT OF DONALD INGRAM

MR. INGRAM.  Good afternoon, Chairman Boozman, Ranking Member Herseth, and 
members of the Subcommittee.  On behalf of the National Association of State 
Workforce Agencies, I thank the Subcommittee for the opportunity to share the 
views of our members.

NASWA members constitute the State leaders of the publicly-funded workforce 
investment system which is vital to meeting the employment needs of veterans 
through the Disabled Veterans Outreach Program and the Local Veterans Employment 
Representatives Program.

My remarks will be limited to the legislative discussion draft that would 
establish the Veterans Employment State Grant Improvement Act of 2006.
Mr. Chairman, NASWA supports the intent of the Subcommittee's proposal to 
require the Secretary of Labor to establish and maintain guidelines for States 
to develop the professional qualifications for LVERs and DVOPs.

We believe giving States the flexibility to develop the professional 
qualifications for LVERs and DVOPs will ensure these professionals are highly 
qualified to serve veterans while enabling them to function within the range of 
State personnel structures.  It is important the guidance established by the 
Secretary allow for these variations among States.

In addition to NASWA's support for the intent of the Subcommittee's legislative 
proposal to improve DVOP and LVER qualifications, we offer the following 
comments and recommendations:
NASWA applauds the Subcommittee for clarifying the definition of part-time DVOPs 

and LVERs to mean those working no less than half time.  State flexibility in 
hiring or assigning part-time DVOPs and LVERs to rule in satellite offices 
provides veteran services in areas that are not otherwise served.
NASWA recommends the local performance information on veteran services be 
collected and monitored at the State workforce agency level.  The capability to 
collect performance information, it exists in many States already.
The three-year time period for implementation of the information collection 
system is necessary for all States to meet the compliance requirements.  Once 
information on performance is collected, it will provide useful feedback to 
ensure workforce center services provide veterans that exceeds performance 
standards.

NASWA supports State licensing and certification programs for veterans.  
However, NASWA recommends additional funds be appropriated by Congress to cover 
the cost to implement these programs.  If additional funds are not appropriated, 
it is requested that the Act clarify the costs for establishing and implementing 
licensing and certification programs be an allowable cost under the DVOP and 
LVER State grants.

NASWA supports the National Veterans Training Institute training for DVOPs and 
LVERs within three years of their designation as DVOPs or LVERs.  However, the 
law should permit exceptions for instances where there exists State travel bans, 
unavailable NVTI training, when disabled personnel cannot attend training, or 
just any other unusual circumstances.

Further, the reduction to the State grant for noncompliance under this 
requirement should be taken from the next fiscal year, not the current fiscal 
year, as funds are obligated already.

NASWA recommends contractors applying to deliver veteran services under the $3 
million pilot should be required to obtain a letter from the State Workforce 
Agency to ensure their service delivery is consistent with the State workforce 
plan and the State policies.  We request that funds for this pilot not be taken 
from State grants.

NASWA recommends States have the option of providing incentive awards to 
individuals, offices, or smaller units within the offices.  We recommend 
administration of these incentive awards be managed through the Assistant 
Secretary of Labor for Veterans' Employment and Training, not the Director for 
Veterans' Employment and Training as proposed, just to ensure a certain level of 
consistency and fairness of awards across the nation.

Finally, we support the requirement for the Secretary of Labor to develop 
regulations that would ensure veterans receive priority of service.
Mr. Chairman, we look forward to working with this Subcommittee to continue 
providing veterans the highest level of service.  Thank you very much.

MR. BOOZMAN.  Thank you.

[The statement of Donald Ingram appears on p. 65]

MR. BOOZMAN.  We have been joined by Ms. Brown-Waite.
Would you like to talk about your bill?

STATEMENT OF HON. GINNY BROWN-WAITE

MS. BROWN-WAITE.  Certainly.  Thank you very much, Mr. Chairman.  And I 
appreciate the opportunity to testify before the Subcommittee today.
Each year, over 180,000 American soldiers make a decision to leave the Armed 
Forces.  After serving honorably in defense of our country, many of these 
individuals seek employment in the civilian world hoping to capitalize on the 
skills that they have gained during their time in the military.

However, the job search for veterans can be difficult.  According to the Bureau 
of Labor Statistics, the average unemployment rate for recently discharged 
veterans is 6.9 percent.  Now, we need to compare that with the national average 
of 4.7 percent.

Unfortunately, many employers do not understand the skills that an individual 
obtains while serving in the military.  Moreover, many civilian occupations 
require employees be certified or licensed within their field, something that is 
sometimes difficult to obtain while serving in the Armed Forces.

This virtually renders the individual ineligible for some of the jobs that they 
seek that they easily could do.  For example, a soldier who has driven a truck 
during their time in the service, a large tractor trailer truck, is not eligible 
for a job that requires a CDL.  They have to then spend thousands of dollars.  
Whether they use the GI Bill or their own money, they then have to spend 
thousands of dollars to be eligible to take the CDL license.

This result certainly is undesirable.  And some veterans want to find employment 
in the fields for which they are over-qualified or in fields that have nothing 
to do with the skill set that they have learned while in the military.  Although 
the Department of Defense, Labor, and Veterans' Affairs have worked to address 
this issue, we certainly must do more.

This week, I will introduce, the Veterans Certification and Licensure Act of 
2006.  The bill would establish a Veterans' Advisory Committee on Certification, 
Credentialling, and Licensure within the Department of Labor.

This Committee would include experts from the business realm, human resources 
industry, labor unions, and veterans service organizations.  The Committee would 
focus on improving the transition of military personnel to the civilian world 
through certification, credentialling, and licensing efforts.  It would examine 
the current programs within DoD and DoL as well as the VA.  It would make 
recommendations to the Secretary of Labor.

The Veterans' Advisory Committee on Certification, Credentialling, and Licensing 
would meet each fiscal quarter and would have to provide a report on its efforts 
to Congress within one year of its creation.  The Committee would also submit a 
detailed report to the Secretary of Labor addressing some of the important 
questions with respect to the employment of veterans.

I believe that as members of Congress, we have an obligation to ensure that 
veterans obtain employment after leaving the Armed Forces.  This bill would take 
those important steps toward achieving that goal.  It is my sincere hope that my 
colleagues on both sides of the aisle recognize this and will lend their support 
to the Veterans Certification and Licensure Act of 2006.

Once again, Mr. Chairman, I would like to thank the Subcommittee for allowing me 
to testify today.

MR. BOOZMAN.  Thank you.

[The statement of Ginny Brown-Waite appears on p. 46]

MR. BOOZMAN.  Ms. Herseth.

MS. HERSETH.  Thank you for allowing me to pose some questions first to our 
panel.  Appreciate that.

Well, thank you for your insights.  Let me start with Mr. Ciccolella and Mr. 
Ingram.  I thank you both for your testimony and appreciate the insight that you 
have offered as we have drafted the Veterans Employment Bill.

I am very supportive of enhancing the Vets State Grant Program.  I think better 
data management and accountability  procedures, the increased training and 
qualifications of staff, and, of course, improved results are, I am sure, 
everybody's goal.

However, perhaps along the lines of Mr. Ingram's caution, I am a little bit 
concerned that without additional funding for training and services that the 
added mandates within the draft bill may have some unintended negative 
consequences.

Particularly I am concerned that in some rural States or just some States whose 
-- well, that have a number of the conditions by which Mr. Ingram said, you 
know, there are some exceptions, if they have got a ban on travel and what have 
you.

But if they are already under some tight budgets and in some cases limited 
supply of expert professionals available for veterans' employment services, may 
we see reductions in staff dedicated to working with veterans and disabled 
veterans seeking employment?

Mr.  Ciccolella, could you comment on that matter in terms of -- I do not mean 
to put you in the position of having to say, yeah, we need more funding or we 
are going to have problems.  That is not necessarily the response I am looking 
for.

But how much information do we have available to use that would help us 
anticipate what some of these problems might be in some of the areas that are 
sort of strapped the most for resources in being able to meet some of the new 
requirements that will lead to improved results?

MR. CICCOLELLA.  Congresswoman Herseth, the National Veterans Training Institute 
has, I think, proven itself over the years to be a very, very dynamic, flexible, 
and effective way to raise the standards of the DVOPs, LVERs to a consistent 
level.

I think the key thing, where we have had tremendous success with NVTIs not only 
in the quality of the instruction that they give but also in the flexibility and 
how they go about it and where they go about it.

The other thing that we have done, of course, is to make the training free, 
including the travel, free to the State.  There are situations in the States 
where due to the turnover or for other reasons, some of the DVOPs and LVERs do 
not receive the training that they really need.  And we do have a bit of a 
backlog of DVOPs and LVERs that we are trying to train.  So we are always trying 
to catch up.

To implement the continuing employment requirements would take some level of 
additional funding, resources, staffing, and we have to build the capacity for 
that.  I think the capacity could be built very quickly.  There are a lot of 
good people who can do that.  But the main thing is the resources would have to 
be increased.

I am not sure if I responded to your question.
MS. HERSETH.  I think so.  I mean, I think we all understand, especially within 
the agencies in which you all work, that we do our best to make whatever 
resources are available from year to year go a long way and being innovative 
like you just mentioned in terms of offering the free training and that it would 
include travel that would allow, you know, us to kind of get around, you know, 
what might be happening with a particular State on the budgets that they are 
allocating to meet some of the needs for veterans that we know various States 
have done more effectively than others.

MR. CICCOLELLA.  Yeah.  With the flexibility of the NVTI and the quality of 
their instructions, I do not see that as the real issue with raising the 
standards through the continuing education requirements.  I think the issue may 
be on the other end because the States have their classification systems.
And so, you know, you have got to look at how much you upset the apple cart back 
there and what impact, consequences, unintended and intended, you have in terms 
of the pay that those individuals get and that sort of thing.

MS. HERSETH.  Okay.

MR. CICCOLELLA.  But the idea is absolutely on point.

MS. HERSETH.  In some of the capacity building that you refer to, you know, we 
may have a sense if additional resources that we think may be necessary may end 
up being necessary more in a shorter-term capacity building basis than 
necessarily adding those additional costs on the longer-term basis.  I am not 
saying that that will be the case, but it is possible if we are imposing some 
new -- that the cost may not be level over time.  Is that true?

MR. CICCOLELLA.  Definitely, yes.

MS. HERSETH.  Okay.  Then taking a point that Mr. Ingram made about the 
utilization of the services provided by part-time DVOPs and LVERs and making 
mention that oftentimes that is particularly useful for rural or satellite 
offices.

Mr. Ciccolella, do you know how many part-time DVOPs and LVERs that Vets is 
currently funding?

MR. CICCOLELLA.  We have that number.  I do not have it with me, but we 
certainly have that number.

MS. HERSETH.  And do you track working with the States where those part-time 
individuals are -- what is the word I am looking for -- where they are based or 
where they are appointed, if they are serving a rural office or a satellite 
office?  Do you track that information?

MR. CICCOLELLA.  Well, it is tracked at the State level.

MS. HERSETH.  So it would be available for us in terms of the overall number 
that you have and then being able to get from at the State level the breakdown 
of how those part-time folks are being utilized?

MR. CICCOLELLA.  Oh, yes, we could do that.  And with regard to the half time 
for the DVOPs, I think it is -- the figures that I have, 109 of them.  And with 
the LVERs, it is 324.  And there are a total of about 2,400 DVOPs and LVERs.

MS. HERSETH.  Okay.  Thank you.

Secretary Mansfield, thank you for your testimony today.  It appears that the VA 
supports the policy of considering the increases to specially-adapted housing 
grants on an annual basis.

But I was going to ask you based on your written testimony to explain the 
opposition to establishing the annual index.  But I think as you explained here 
today, it is because you think that it should be across the entire Executive 
Branch.  It should be in comport across the entire Executive Branch.

But my question would be, don't we do this in terms of it is just essentially 
cost-of-living adjustments for other benefits just based on CPI?

MR. MANSFIELD.  They said that we support the increase that you recommended for 
the total amount this one time.  The problem is the Administration's position is 
that there should not be the individual indexing, that it should be tied into 
other indexing programs across the system, and that would be an Administration 
initiative.  Therefore, we opposed it.

MS. HERSETH.  So if it was tied into other indexing, we could do -- 

MR. MANSFIELD.  In other words, the Administration -- 

MS. HERSETH.   -- we could tie it to CPI for the cost-of-living adjustments?

MR. MANSFIELD.  Well, I think what the Administration position is is rather than 
having a number of different types, for example, VA may be tied into the CPI and 
the VA -- or HUD may be tied into the HUD index and then -- 

MS. HERSETH.  I see.

MR. MANSFIELD.   -- Commerce might be tied into something else.  That instead of 
having a whole number of these, there should be one way to do it across -- 

MS. HERSETH.  Okay.

MR. MANSFIELD.   -- the entire Executive Branch -- 

MS. HERSETH.  Given what you just described, that is a broader goal of the 
Administration is to try to find some equalizing measure across agencies?

MR. MANSFIELD.  Yes.

MS. HERSETH.  And that once we find that, that you are not opposed to the index 
per se, but what the index is?

MR. MANSFIELD.  This is one where I have to be careful.

MS. HERSETH.  Okay.

MR. MANSFIELD.  You know, I think the position is that if you can find an index 
that meets the needs of all these different programs, then it would be, you 
know, approved.

MS. HERSETH.  In light of your -- 

MR. MANSFIELD.  But that is not an Administration -- 

MS. HERSETH.  In light of your understandingly cautious response, do you have 
any suggestions on what an appropriate index might be?

MR. MANSFIELD.  Well, the other part of this I would make a point, too, which 
the testimony says, we would be more than happy to work with the Committee each 
and every year in an effort to make sure that when the appropriate time is, we 
do go forward with an increase that meets the needs.

Obviously over the course of the last few years with a steady and high rise in 
real estate values, it has been the time to do this.  In other years, it may be 
flat and you may not need to do it.  But we would continue to work -- 

MS. HERSETH.  Okay.

MR. MANSFIELD.   -- with the Committee on making sure that the veterans, which 
is what we are here for -- 

MS. HERSETH.  Right.

MR. MANSFIELD.   -- are taken care of.

MS. HERSETH.  And along that line, and I appreciate your willingness to work 
with us on that, is sort of in trying to determine, say, an appropriate index.  
It might be to ask you the question of whether or not you are aware of what 
adaptations are made most frequently to a veteran's residence through the 
Specially-Adaptive Housing Program.

MR. MANSFIELD.  Well, there are two parts of this program, and the one is the 
Total House Program and that is a methodology to conform to the VA established 
requirements for accessibility within the house.  That is the large program.
The smaller program with the smaller amount is set up to deal with the 
individual veteran's specific needs.  And in that case, a blinded veteran might 
have certain needs.  A spinal cord-injured veteran might have certain needs.  An 
amputee might have other needs.  And those needs are then addressed by the 
smaller dollar amount program.

MS. HERSETH.  Okay.

MR. MANSFIELD.  If you wish, for the record, I can supply you with exactly what 
the different requirements are.

MS. HERSETH.  That would be fine.  I do not know that it is necessary.  I think 
we can access that information separately.  But if that is easily transferred 
over to us, that would be helpful.

Does the VA maintain the number of disabled veterans who are eligible for 
specially-adapted housing grants or do you only track those who actually apply 
for or utilize the benefit?

MR. MANSFIELD.  There is a medical determination that has to be made for the 
entitlement to invest, so to speak.  So we would have that.  I do not have it 
with me.  Again, we can supply it for the record.  But, you know, it requires 
the medical determination of whether you can meet the needs.  So we would have 
that on record.

And then Jack may be able to help you out.  It goes to the regional offices, 
right?

MR. MCCOY.  We can get you some information on that because, as the Deputy said, 
it does go to our regional offices.  At each regional office now especially we 
are tracking severely injured.  So it would be much easier for us to track that.  
And then the rating decision on each individual, we make a determination at what 
level they would be entitled to the full grant, to the adaptation grant.

MS. HERSETH.  So just to be clear, and I know I have gone over time, but it is a 
medical determination that is independent from any other -- veterans have to go 
through a lot of interviews and determinations for the variety of different 
benefits that they have earned.

And so is this a medical determination that any of our disabled veterans go 
through as an initial matter that is comprehensive to our different benefits or 
is it -- it is not one that is separate -- 

MR. MCCOY.  No, ma'am.

MS. HERSETH.   -- for this particular program?

MR. MCCOY.  For example, if the veteran filed a claim for service-connected 
disability, we would make a determination by -- even if the person did not 
apply, it is an inferred issue.  If we saw that person was entitled, we would 
make that determination.  It would be part of that rating, and we would send 
them information on how they could apply for the benefit.

MS. HERSETH.  Okay.  So going back however many years when we had the medical 
determination for the rating, okay, so for any service-connected disabled 
veteran going through that process to get a rating, the regional offices have 
the ability to track that?

MR. MCCOY.  I cannot tell you how far back we can track that.

MS. HERSETH.  Okay.  If you could just follow-up with us so that we -- you know, 
especially, I think, now my hunch is, and I mean no disrespect, my hunch is we 
are doing a better job tracking our severely-injured service men and women who 
are returning from Iraq and Afghanistan than perhaps we did as they returned in 
the '70s and before.

But if you can just give us some sense as to what the Committee can do as we 
seek to meet the needs of even some of our veterans, say, from the Vietnam era 
who are just now some of them coming around to utilize and getting over some of 
their distrust of government or unease with dealing with the VA or what have 
you, that because some of their fellow veterans are starting to utilize 
different benefits that have been available to them for some time, and I just 
want to make sure we are in a position to meet their needs.

So thank you.

I may have a few other questions on the GI Bill, but I will turn it over to 
others on the Committee.

MR. BOOZMAN.  Ms. Brown-Waite.

MS. BROWN-WAITE.  Thank you very much, Mr. Chairman.  Thank you for holding this 
hearing.

Mr. Ciccolella, I understand that you have concerns about some of the provisions 
in the bill that we are introducing this week and feel that it may be 
duplicative of the entity that is within Department of Veterans Affairs right 
now, that being the Professional Certification and Licensure Committee.

It is my understanding that that Committee is primarily concerned with 
administering the VA Reimbursement Program for licensing and certification 
testing fees as opposed to setting up a model of this is the career path that 
the veteran had when he was in the military and here is a similar career path, 
but rather the existing Committee is more into paying the reimbursement and the 
fees for that certification.

If we could come up with a group -- and there are entities out there that are 
willing to do this -- if we could come up with a method of gaining that 
certification, which is the goal of my bill, without spending a lot of money, 
rather breaking through some of the red tape, it seems to me as if that would be 
a win-win.

And I also understand that the Committee, the PCLAC, under the Department of 
Veterans Affairsis due to expire December 31st of this year.
So having said all that, why do you believe that this would be conflicting with 
what you are doing?  There are two separate issues.  One is paying fees for 
certification and another one is here is the certification, Mr. Employer, that 
this person has done X, Y, Z, and here are what the requirements are in the 
outside world.

Let me tell you why I introduced the bill.  I had a young man come to me who 
spent 20 years in the Air Force and he was a meteorologist in the Air Force.  
When he came out, he went into HR.  And I said to him, now, that certainly is a 
different career path.  And I like people who change careers, but that is a 
really drastic change.

And he said, oh, I loved being a meteorologist.  The problem was I was not 
certified.  And he said I had a family to support and did not have the time to 
spend three or four years in college again to get that certification.

So if we can say, okay, your meteorological skills were learned in the military 
and a meteorologist on the outside world needs these qualifications and this 
kind of experience, why should that person have to go to college for three 
years?  And that is what we are trying to accomplish in the bill.

So I would like to have your comments in light of the fact that the Committee 
actually is one that is about to expire, the existing Committee.

MR. CICCOLELLA.  Thank you, Congresswoman.

First of all, let me just say that we at the Department of Labor, I personally 
and I think the Administration, very much appreciate your interest in this area.
I think you are right with regard to how you defined the VA Committee's 
responsibility.  I think they may also have picked up where the Veterans 
Corporation left off.  And the Veterans Corporation also had a Committee that 
looked at that.  I think there is probably very good work being done by the 
PCLAC, the VA Committee.

I also would like to say that licensing and certification is exactly the way you 
have described it.  It is an issue when you leave the service.  I had the same 
experience.  I wanted to be a teacher.  I had to go back to school for two or 
three years, pay $10,000 a year to get tuition and whatnot.  So I decided not to 
do that.

So I applaud the Committee's efforts.  Now, this is a very complex issue and 
there have been a lot of Committees and a lot of studies and a whole lot of 
conferences by a lot of different entities, but we still do not have much in the 
way of the path that you have described and any clear-cut assistance, I think, 
that truly makes it easier to transition with your skills to a license or a 
certification.

So I will say that it is an important issue.  I applaud your efforts.  It needs 
to be addressed.  My question is whether or not we need another Committee to do 
this.  I think what we are after here is the path.  I think what we are after is 
some information.

And I have given this a lot of thought.  I think we need to move to the next 
step and I think the next step should be more operational.  I think that we 
should take a look at a sampling, 20, 30, maybe 100 of the occupational 
specialties in the military that clearly relate to the high- demand occupations, 
the high-growth industries that lead to good careers.

And I think that we should look at the training that has been provided by the 
military because they spend so much money on training and the certificates or 
certifications that the military provides.  We ought to look at the 50 States or 
52 States and territories and look at these comparable civilian occupations and 
we ought to list what the requirements are for those occupations that correspond 
to those military occupational specialties.

Then that would tell us what the gap is.  And then we could do a gap analysis 
and then it might be time to form a Committee to make some recommendations with 
regard to how we deal with the States and how we ask the States to accept some 
of the military training.

And as with everything else in life, it just seems to me that if we get this 
started on a smaller level and do it for 20 or 30 occupations and facilitate and 
make it easier, maybe instead of having to go through four out of five wickets 
to get a State license or a State certification, you could reduce that to one or 
two, then we are on the path toward making progress on this.  And then we could 
expand that list of the occupational specialties and how they transition.
So what I am saying, Congresswoman, is that I applaud the idea.  I think the 
Committee could be effective.  But I think it would be much more effective to do 
something operational as opposed to more reports and more recommendations by the 
Secretary because we have done a lot of that, but we still do not have, I think, 
what we need.

MS. BROWN-WAITE.  But, sir, what you are admitting is that it has not worked.
But, you know, that is exactly one reason why this bill went through about 30 
iterations, because I do not want it to just be another study Committee.  
Basically the bill, I tightened up a lot on it and gave some deadlines for 
accomplishing things because I do not want it to drag on forever.

You know, hopefully we will be bringing some troops home.  You know, we need to 
have them have the availability of transitioning into a job.  Some jobs will 
require certification.

So, first of all, we put some deadlines in here and asked them to identify any 
area of employment in which credentialling and certification systems could be 
established where this is a mutuality.  And so that is called for in here.
I think without specific deadlines, and we are asking it to be done within an 
18-month period, without specific deadlines, I am told that nobody could ever 
get together and really agree on this.

And if you look at the composition of the panel that we have, we have people 
from Labor.  We have people from the various VSOs, certainly the VA.  We want to 
make sure that this happens and that it is not just another study.

But I do not think we can go out there and wave a magic wand tomorrow and 
say,you sir, are now a meteorologist because you spent almost 22 years in the 
military doing that.  We need to make sure that there is a comparative skill set 
there from the military to the private sector.

And I want to make sure that it does get done.  As I say, this bill went through 
lots of iterations because I do not believe in putting a bill out there without 
having a sunset and without having some achievable goals because to me, that is 
three-quarters of what Washington has missed in the big picture.  They say go 
forth and do, but never give any deadlines.  And so, therefore, it just goes ad 
nauseam.

So we wanted to make sure that we did set some reasonable deadlines in here.  
And, quite honestly, there are a couple of firms out there that say that they 
can do this.  I did not want to steer business their way.  However, there is 
some language in here that allows this Committee, if they feel that it is 
expeditious, it allows this Committee to contract with someone to help them to 
achieve this goal.

So there are lots of tools in the bill that -- I can tell you that we have 
spoken to the Veterans Service Organizations.  They support it.  We need to stop 
talking, sir, and start doing something.  And if this group says, you know, hey, 
we have tried this before and we are incapable, then you have the ability to 
hire it out to various companies that say, hey, we can do this for you.
But, you know, what I do not want to do is I do not want to be in an adversarial 
position.  I want to work with you so that we can help our young men and women 
coming out of the military.

MR. CICCOLELLA.  Well, Congresswoman, we certainly are not on different sides on 
this.  I think I applaud the intent behind the Committee.  Something does need 
to be done.  I think we just differ on how we go about it.

Committees, I believe, can be so effective and I think the Committee, the way 
the legislation is written, I think it would identify the issues, and that 
serves a purpose.  And I am not disputing that at all.  I do not think we have a 
difference.

My contention is that I would like to see some real progress made on this just 
like you would.  And I think the way you make that progress is we start 
profiling the military occupational specialties against the State requirements 
and we establish 20 or 30 paths.

And then, you know, we make sure that Defense Department does their piece and 
Labor and VA do their piece, and we look at how we have actually facilitated 
transition and then we sort of expand that list.

And it is not that I think the Committee is a waste of time or that it would not 
do good work because I know it would, and the composition is very good.  And I 
think a great deal of thought has gone into it.  The objectives of the Committee 
are very good.

Again, I just think it is time to draw a straight line on this and move toward a 
product.  And I think given the work that has been done by Department of 
Veterans' Affairs and other entities that have looked at this, I truly believe 
we are ready to move in a more operational manner.  So we may just differ on 
that point.

MS. BROWN-WAITE.  If you have any suggestions that you would like to add on 
this, I would certainly be very happy to work with you.  But I do not mean this 
the way it sounds.  You have not done it thus far, so this member of Congress 
does not believe unless it is written thou shalt that it will be done.  So, 
therefore, this is why the bill evolved into this manner.

Now, if you would prefer, I will rewrite a bill that says let us go to a group 
that has the expertise, that can do this, but you might not like the outcome.
So I believe that your involvement is very important.  I believe that the 
Department of Labor involvement is very important.  Their veterans' outreach is 
very important.  And I want to see that very delicate blend of expertise there 
so that we can get moving on this.

I would love it to be in six months, sir.  But one thing I had to learn when I 
came to Washington, D.C. and that is how slowly government works.  For somebody 
who came from a State legislative background, it is very frustrating how slowly 
Congress works.  And you know what?  It is even more frustrating for our 
constituents back home who cannot understand why it takes so long.

I will tighten up on the time line in here, sir.  If you think 18 months is too 
long, we can make it three months or six months, but we need to get going and 
stop talking about it. 

Thank you, Mr. Chairman.

MR. CICCOLELLA.  I think we agree.  I think we agree on that point, 
Congresswoman.  And I would be more than pleased to work with you and your staff 
and the Committee's staff to come up with a viable plan.

MR. BOOZMAN.  Ms. Herseth.

MS. HERSETH.  Thank you for indulging me, Mr. Chairman.  Just listening to the 
exchange, it is clear to me that both the Congresswoman and Mr. Ciccolella have 
given this a lot of thought and agree on more than they disagree.

And my only suggestion, even though understanding Ms. Brown-Waite's frustration 
because she and I have both been -- she has been here a little bit longer than I 
have, not too much, and we both want to just see the results.  And so much has 
been done, but we have never followed through.  We have not connected the dots.
And I think that if we can make a bipartisan commitment to reforming a GI Bill 
that provides flexibility, that intersects directly with this issue that we can 
move in an operational way to perhaps add a new section to the GI Bill that 
matches this up, matches up the training with the governors' involvement and the 
certification by every State and how we make this a more fluid transition 
perhaps in a more comprehensive bill even though I know that Ms. Brown-Waite and 
I agree sometimes we can get the results a little bit faster if we approach it 
in a more incremental way, but just a suggestion that if we can get the 
political will to do what we want to do with the GI Bill that this might make a 
great sort of new section on how we do it.

MR. CICCOLELLA.  I completely agree.  We need to get something done.

MR. BOOZMAN.  Thank you.

And I think that is our frustration.  You know, we are with you and we really do 
appreciate the fact that you have thought about this a lot.  And hopefully, we 
will mesh this out and be able to move forward.

Let me just ask a couple things real quick and then we need to move on.
First of all, Mr. Secretary, I want to assure you that the language on the 
disabled business owners and spouses that it in no way was meant to imply that a 
disabled veteran was not capable of running a business.  And the record 
certainly shows just the opposite and our report language will reflect that as 
we go forward.

Second, today several witnesses on the second panel will disagree with the 
deletion of the nine percent mandatory acquisition goals that was in the first 
draft of House Resolution 3082.  They feel like the VA will not take this bill 
seriously without the provision.  And I want to note that this year, the VA has 
set aside just 2.16 percent for service-disabled veteran-owned businesses.
So we have talked about this.  And I really know that your heart is in the right 
place on this, but can you talk a little bit about a commitment that you would 
make in establishing under Public Law 106-50, the Secretary's goals for the 
department?

MR. MANSFIELD.  Yes, sir, Mr. Chairman.  I made the point in my introductory 
statement that one of the things that I did was move this requirement into the 
monthly performance review report so that I got a chance to look at it.  

Originally, that was on a departmental basis and we had an opportunity to see 
what was happening across the department.

Recently, I moved it to Office and Administration basis so we could allow each 
Office and Administration to be able to see where they were in the picture and 
that I could see where they were and we could then be able to take action as 
needed.

I would make the point that the Secretary has indicated in directives to the 
staff that he is committed to this.  I would make the point that I am committed 
to this.  I have to tell you that I am concerned that I sit here with the 
numbers you just mentioned as a part of our record and that is not good.  We 
need to do better, obviously.

The other part of it is is that we are the Department of Veterans' Affairs and I 
believe we need to focus on and concentrate on within the context of existing 
statutes the veterans' issues and make that a priority.  And I have attempted to 
do that and I would tell you and the Committee and the world that I would 
continue to make that a priority, continue to push it and continue to try and 
get those numbers higher.  And I know that we will.

MR. BOOZMAN.  Thank you very much.

Another thing that just came up, the National Student Clearinghouse, we received 
a letter from them saying that they were proposing to conduct a one-year pilot 
program to assist VA enrollment, certification, and other issues of veterans 
attending institutes of higher learning at no cost to the VA.

You know, on the surface, this seems like a good idea.  I guess would you all be 
willing to sit down with our staff and discuss that as far as looking at a 
Clearinghouse pilot project, not committing you in any way, but just, you know, 
sitting down and looking at their proposal and -- 

MR. MANSFIELD.  Yes, sir.

MR. BOOZMAN.   -- going forward?

MR. MANSFIELD.  I would definitely do that.  I make the point, too, for example, 
in a recent visit to Ft. Benning to talk to our folks involved in the Benefits 
at Discharge Delivery Program that that office has the benefit of a work study-
type person in there to help in the administrative duties.

I think what I was trying to say is that in this area, we need to make sure that 
we do not put unqualified people in jobs that are advising or giving direction 
to veterans that require a certain qualification or certification.

MR. BOOZMAN.  Okay.  One other question about the withholding.  It was suggested 
that withholding funds from the subsequent year rather than the current year.  
Can you explain that comment?

MR. MCCOY.  Would you repeat the question, please?

MR. BOOZMAN.  Mr. Ingram, I am sorry.  It was suggested that withholding funds 
from the subsequent year rather than the current year.  Can you explain that 
comment?

MR. INGRAM.  Yes, sir, I can.  This would enable States to do better planning as 
far as their budget goes for the following year.  The budgets had already been 
established and so to take it from that year would impede the planning for the 
following year.

MR. BOOZMAN.  And so is this something that VETS would concur with or -- 

MR. CICCOLELLA.  The issue here is the negative incentive if they do not send 
their DVOPs and LVERs to NVTI to arrange that training.  I am not in favor of 
taking money away from States.  I do not think it helps at all.

But if the money were going to be taken away, I think as a practical matter, it 
would be taken out of the next year's allocation.  The next year's allocation 
would be reduced.  Just as a matter of course, it would take that long to 
process that.

Again, I would go on record saying that I am just simply not in favor of taking 
money away from States.  It is a job of our State Directors and it is a job of 
our National Office to work with the States and help them in every way to get 
their DVOPs and LVERs trained and to get their outcomes up.  And we have a lot 
of tools to do that.  And I am just not sure that taking money away from States 
-- I just think it makes it a lot worse.

MR. INGRAM.  Chairman Boozman, another point is that the State grant received in 
the current year has already been obligated for services to the veterans and 
this would just give us additional time to coordinate the service delivery based 
on the projected reductions in the next fiscal year.

MR. BOOZMAN.  Have you got any other things, Ms. Herseth?

MS. HERSETH.  One last, and I know we are keeping the second panel waiting, but 
I never pass up an opportunity to ask for an update on Chapter 1607 and the 
Reserve Education Assistance Program.

Could either you, Mr. Secretary, Mr. McCoy, address sort of where we are in 
terms of the implementation of the New Electronic Payment System and the like?

MR. MCCOY.  As far as the Chapter 1607, I believe, as you know, when we 
established our payment system in February, we had 15,000 cases pending.  As of 
this morning, we had approximately 1,500 and we are going to make every effort 
to have those gone and worked by Monday morning.  Our goal has been to finish by 
the end of April.

MS. HERSETH.  Thank you for the good news.  I appreciate it.

MR. MANSFIELD.  I might make the point that that, too, is a part of the monthly 
performance review.

MS. HERSETH.  Okay.  Thank you.

Thank you, Mr. Chairman.

MR. BOOZMAN.  Thank you.  I thank the panel so much for appearing.  We 
appreciate your testimony, and I think we really accomplished a lot and got some 
real insight.  So thank you with your help on these bills and we appreciate your 
service.  Thank you.

Our second panel today includes David Greineder, the Deputy Legislative Director 
for AMVETS; John Lopez, Chairman of the Association for Service Disabled 
Veterans; Brian Lawrence, Assistant National Legislative Director for the DAV; 
Mr. Morgan Brown, Co-Chairman of the Military Coalition; Mr. Joseph Sharpe, 
Deputy Director of the Economic Commission of the American Legion; Mr. Carl 
Blake, Associate Legislative Director for the Paralyzed Veterans of America; Mr. 
Eric Hilleman, Assistant Director of the VFW National Legislative Service; Mr. 
Rick Weidman, National Legislative Director of the Vietnam Veterans of America.
Let us start out with Mr. Lawrence.  Thank you all.  I apologize that we are 
running a little late and yet we are not.  You know, that is the idea of these 
hearings - to be here and try and get all the useful information that we can.  
So we do appreciate you being here.  And so again, let us start with Mr. 
Lawrence.

STATEMENTS OF BRIAN E. LAWRENCE, ASSISTANT NATIONAL LEGISLATIVE DIRECTOR, 
DISABLED AMERICAN VETERANS; CARL BLAKE, ASSOCIATE LEGISLATIVE DIRECTOR, 
PARALYZED VETERANS OF AMERICA; JOHN K. LOPEZ, CHAIRMAN, ASSOCIATION FOR 
SERVICE DISABLED VETERANS; JOSEPH C. SHARPE, JR., DEPUTY DIRECTOR, ECONOMIC 
COMMISSION, THE AMERICAN LEGION; RICHARD WEIDMAN, GOVERNMENT RELATIONS 
DIRECTOR, VIETNAM VETERANS OF AMERICA; MORGAN BROWN, CO-CHAIR, VETERANS 
COMMITTEE, THE MILITARY COALITION; ERIC HILLEMAN, ASSISTANT DIRECTOR, NATIONAL 
LEGISLATIVE SERVICE, VETERANS OF FOREIGN WARS OF THE UNITED STATES; DAVID 
GREINEDER, DEPUTY NATIONAL LEGISLATIVE DIRECTOR, AMVETS

STATEMENT OF BRIAN E. LAWRENCE

MR. LAWRENCE.  Thank you.  Chairman Boozman, Ranking Member Herself, and members 
of the Subcommittee, on behalf of the 1.3 million members of the Disabled 
American Veterans, I appreciate the opportunity to present our views on the 
legislation being considered today.  I will limit my remarks to the measures 
that are most pertinent to the DAV mission.

First, I would like to commend the Subcommittee for its leadership and 
bipartisan commitment to assist the most severely disabled veterans.  The DAV 
thanks Ranking Member Herseth for introducing the Disabled Veterans Adaptive 
Housing Improvement Act and Chairman Boozman for recognizing its merit and 
fostering its success.

This bill is important not only because specially-adapted homes are more 
expensive than conventional homes, but also because the grant amount has 
remained relatively flat while building costs have risen.

Along with providing an immediate increase, the bill would help to ensure that 
grant amounts remain viable by providing for annual adjustments based on the 
national average increase in the cost of residential home construction.
This will have a huge impact on the lives of catastrophically injured men and 
women returning from the War on Terror.  In accordance with resolutions adopted 
by delegates to the National Convention, the DAV strongly supports this 
legislation.

The DAV also supports the effort to increase VA contracting opportunities for 
small businesses owned and controlled by service-connected disabled veterans.  
No other category of business owner has contributed more to our nation or is 
more deserving of special consideration for federal contract opportunities than 
disabled veterans.

The amendment to House Resolution 3082 would require VA to establish a 
percentage goal for each fiscal year for such contracts.  While we would prefer 
to see mandates rather than goals, it is a worthy measure, especially since it 
provides an incentive for procurement officers to meet the established goals.  
The DAV hopes this additional measure will encourage adherence to the 
amendment's intent.

Generally the DAV does not take action on legislation that is based upon other 
than wartime service-connected disabilities; therefore, we would not usually 
have a position regarding the Montgomery GI Bill.  But because the GI Bill 
Flexibility Act of 2006 provides special consideration for disabled veterans, we 
support its goal to provide flexibility for accelerated payments.

The Act would provide special rules authorizing payments for service-connected 
disabled veterans to equal 75 percent of established charges.  The DAV supports 
this legislation.

Though we have no resolutions pertaining to the remaining measures, their 
purposes are meritorious and we have no objection to their favorable 
consideration.

Mr. Chairman, that concludes my statement, and I will be happy to respond to any 
inquiries you or any other members may have.

MR. BOOZMAN.  Thank you, Mr. Lawrence.
[The statement of Brian E. Lawrence appears on p. 71]

MR. BOOZMAN.  Mr. Blake.

STATEMENT OF CARL BLAKE

MR. BLAKE.  Chairman Boozman, Ranking Member Herseth, PVA would like to thank 
you for the opportunity to testify today on the proposed legislation.

And, Ms. Herseth, PVA would like to particularly thank you for introducing House 
Resolution 4791 that would increase the amount of the Specially Adapted Housing 
Grant from 50 to $60,000.  PVA members are the highest users of this very 
important grant.

In accordance with the recommendations of the Independent Budget, we also 
support the provision that would require the Secretary to establish a 
residential home cost of construction index to be used to automatically adjust 
the amount of these grants each year.

As the housing market has continued to boom, these grants have not kept pace.  
Without an annual adjustment to the grants, inflation will continue to erode 
their purchasing power.

I would also like to suggest to the Subcommittee that they consider looking at 
changes to the grant that provides for adaptive equipment for the purchase of an 
automobile as well as you move this legislation forward.

PVA supports the Veterans Employment State Grant Improvement Act.  PVA is very 
encouraged by the requirement for the States to establish a licensing and 
certification program as a condition of a grant or contract.

PVA welcomes the GI Bill Flexibility Act as a means for more separating veterans 
to take advantage of the opportunities earned while in uniform.  Providing 
increased versatility to veterans to take advantage of their benefits will 
provide greater opportunities in civilian employment.

Currently rules severely limit the ability for veterans to receive lump sum or 
accelerated payments of educational benefits.  By expanding this access, many 
training programs that have been off limits to veterans will now become 
available.  PVA believes that this legislation is only the first step in needed 
changes to all veterans' education benefits.

Perhaps the most overlooked section of this population is National Guard and 
Reserve forces mobilized for the Global War on Terror.  These soldiers serving 
on active duty earn as much as $22,000 in educational benefits during their 
mobilizations.  However, if these soldiers choose to retire or leave military 
service following their return from combat, they would lose these benefits 
automatically.  Any active-duty military who choose to do the same will not lose 
their benefits.

PVA sees this as inherently unfair.  Military leaders are quick to point out 
that retention is their prime concern and see this program as a tool in keeping 
soldiers in the Guard and Reserves.  We understand these concerns, but disagree 
that these soldiers who honorably served should be denied this benefit that they 
have rightfully earned.  We hope the changes to the GI Bill do not end with this 
legislation.

PVA supports the Veterans Licensing and Credentialing Act as another step to 
ensure individuals separating from the military have every opportunity to 
seamlessly transition to civilian life.

The training and experience achieved during military service makes veterans well 
suited to be successful in civilian employment.  It is troubling that many of 
these veterans leave military service with skills and experiences often well 
above their civilian counterparts who have not served and, yet, they struggle to 
find employment.  These veterans are hampered because they do not have the 
specific State license or certification that can allow them to immediately enter 
a civilian profession.

The establishment of a Veterans' Advisory Committee on Certification, 
Credentialling, and Licensure can improve this process.  However, we believe to 
be really successful, it must be fully supported by the Department of Defense, 
Department of Veterans' Affairs, and the Department of Labor.

PVA is disappointed to see the changes to House Resolution 3082 proposed in the 
amendment being considered.  In July 2005, we first testified on this 
legislation and we welcomed the substantial move to require nine percent of 
procurement contracts entered into by the VA to be awarded to small business 
concerns owned by veterans or service-connected disabled veterans.

It is unfortunate that the Subcommittee is moving away from such meaningful 
legislation.  Replacing this requirement with a goal that the Secretary shall 
establish does nothing to improve the current situation.

Though the nine percent requirement may be large or difficult to meet, 
government agencies almost without exception have shown that they are wholly 
incapable of meeting the procurement goals for veteran-owned businesses.
When working towards passage of Public Law 106-50, the VSOs worked tirelessly to 
get real requirements for procurement included in the legislation.  It is 
unfortunate that years after the passage of Public Law 106-50, there has been no 
change in the attitudes towards veteran business owners, particularly those with 
service-connected disabilities.

Mr. Chairman, I would like to thank you again for the opportunity to testify and 
I would be happy to answer any questions that you might have.

MR. BOOZMAN.  Thank you, Mr. Blake.

[The statement of Carl Blake appears on p. 77]

MR. BOOZMAN.  Mr. Lopez.

STATEMENT OF JOHN K. LOPEZ

MR. LOPEZ.  Good afternoon, Mr. Chairman, Ranking Member, and members of the 
Committee.

Attempts by the nation's service-disabled and prisoner of war military veterans 
to participate in the economic system for which they have ensured security and 
prosperity have been an embarrassment.

In spite of the commitment of the United States Congress and the efforts of 
individuals in the Federal Administration, the systemic abuse of service-
disabled veteran aspirations by an insulated bureaucracy has threatened the 
foundation to our national patriotism.

The recalcitrant behavior of those officials charged by the United States 
Congress and Presidential Executive Order to enhance and implement opportunity 
for service-disabled veterans makes a chilling statement that the rehabilitation 
of America's heros is irrelevant to the agenda of the major corporations and 
their subservient procurement officials.

As an example, consider that the top 100 billion dollar contracts to the 
Department of Veterans' Affairs are among the worst providers of opportunities 
for service-disabled veterans seeking to maintain their rehabilitation as owners 
and operators of small business.

The United States Department of Veterans' Affairs will not meet even negotiated 
goals unless those goals are specifically enumerated.  The intent of the 
provisions of House Resolution of 3082 is absolutely needed by the service-
disabled veterans of the United States and their families.

The proposed amendments are also necessary to clarify and more clearly focus on 
the complexity and practice of procurement awards by the United States 
Department of Veterans' Affairs.  Each of the House Resolution 3082 provisions 
and amendments address a real and specific experience or concern of service-
disabled veterans in pursuing and maintaining their rehabilitation practices.
This unique and most deserving population requires a complete and total 
commitment of our nation's resources and the support of the United States 
Congress.

I will be pleased to answer any questions you may have.  Thank you.

[The statement of John K. Lopez appears on p. 86]

MR. BOOZMAN.  Thank you, sir.

Mr. Sharpe.

STATEMENT OF JOSEPH C. SHARPE, JR.

MR. SHARPE.  Mr. Chairman and members of the Subcommittee, thank you for this 
opportunity to submit the American Legion's views on the issues being considered 
by the Subcommittee today.

House Resolution 4791, the Disabled Veterans Adapted Housing Improvement Act.  
Given the rising cost of construction materials and services, the American 
Legion is pleased to support this pending legislation that would raise these 
allowances and allow the grants to be paid to adapt the homes of parents and 
siblings caring for disabled veterans.

Draft bill Veterans Employment State Grant Improvement Act of 2006, the American 
Legion is supportive of the Veterans Employment State Grant Improvement Act of 
2006 and other measures that will improve employment services for veterans 
provided under the Veterans' Employment and Training Services.

Draft bill GI Bill Flexibility Act of 2006, the American Legion supports the 
provisions of the GI Bill Flexibility Act of 2006.  In addition, the American 
Legion strongly supports the expansion of the program to include other short-
term programs of value that could lead to the immediate employment of veterans.
Draft bill Veterans Licensing and Credentialling Act of 2006, a concern of the 
American Legion is that the Veterans Service Organizations be adequately 
accounted for on any establishment of a Veterans' Advisory Committee on 
Certification, Credentialling, and Licensure.

The American Legion suggests that approximately half of the Committee be made up 
of VSO representatives.  The American Legion supports the provisions of the 
Veterans Licensing and Credentialling Act of 2006.

And, finally, a proposed amendment to House Resolution 3082, the Veteran Owned 
Small Business Promotion Act of 2005, the American Legion still supports the 
original bill House Resolution 3082 that requires that nine percent of 
procurement contracts entered into by the Department of Veterans' Affairs be 
awarded to small business concerns owned by veterans.

We are very concerned about the elimination of the minimum goals and any other 
measures that might hinder contracting opportunities for veteran-owned 
businesses.  The American Legion supports certain provisions of this proposed 
legislation.  However, there needs to be a federal-wide national procurement 
policy in conjunction with Public Law 106-50

Mr. Chairman, that concludes my statement.

MR. BOOZMAN.  Thank you very much, sir.

[The statement Joseph C. Sharpe, Jr. appears on p. 93]

MR. BOOZMAN.  Mr. Weidman.

STATEMENT OF RICHARD WEIDMAN

MR. WEIDMAN.  Mr. Chairman, Ranking Member Herseth, Vietnam Veterans of America, 
first of all, I want to thank you for allowing us to testify today.

House Resolution 4791, this Disabled Veteran Adaptive Housing Grant, we strongly 
support the increase from 50 to 60,000 and from 10,000 to 12,000.  However, 
there is a need for a regional instead of a national average increase in order 
to keep up with rising housing costs.  Housing costs in high-cost areas such as 
Washington, D.C., New York, California, et cetera, Miami are rising much faster 
than they are in many of our rural States.

Secondly, while it may not be appropriate to this legislation, it is something 
that we would suggest that the Committee needs to look into, is that the 
decision as to whether or not to allow someone adaptive housing and various 
aspects of adaptive housing is supposed to be a clinical decision.  All too 
often, particularly in the last year and a half, two years, it has become a 
fiscal decision with fiscal people overriding the Prosthetics Committee of three 
at VA medical centers.

Secondly, the bill that would allow more flexibility in the GI Bill by allowing 
acceleration of pay for particular vocational rehabilitation programs, we 
strongly favor that kind of flexibility and, frankly, would note at this point 
that we continue to advocate for a World War II GI Bill such as our fathers had 
be made available to our sons and daughters who even now are in harm's way in 
the Global War on Terrorism around the world.

In regard to the amendments to House Resolution 3082, the performance review 
noted in that that is for the chief procurement officers for the various 
divisions should also extend to those decision makers within that decision.  We 
laud Secretary Nicholson and Deputy Secretary Mansfield as well as Under 
Secretary Perlin.  They have now given each network director that as a specific 
requirement in their performance evaluation.  And I believe we are going to see 
a much improved situation when it comes to procurement from the Veterans Health 
Administration which is, of course, 85 percent of all procurement by the VA.
The third thing there or second thing is Vietnam Veterans of America also favor 
keeping the nine percent goal because even though we have strong support at the 
VA now from the Secretary on down, we may not always have that kind of support 
from the very top in regard to this issue.

Number three, the sole source provisions need to be even further clarified 
because there is much willful ignorance out there on the part of contracting 
officers as well as decision makers.

And, lastly, applaud you for putting in the succession provision when a veteran 
dies or becomes totally incapable, a disabled vet, of running their business.
In regard to the Veterans Certification Committee, applaud Ms. Brown-Waite for 
her strong and assertive leadership on this issue.  It is something that is much 
overdue.  The veterans' community has been floundering and trying to get 
something done in this for 20 years.  And it is a good start.

We would encourage you to think about adding the Department of Education since 
the State approving agencies in many States falls under the Department of 
Education.

Next, CPC is not something we can recommend be on that Committee as essentially 
it is a not-for-profit that is wholly owned by a for-profit corporation.  
Instead we would encourage you to put in there the U.S. Chamber, National 
Association of Manufacturers, or the National Federation of Independent 
Business, or all three.

Lastly is any vestiges of the responsibility for this function, we believe 
should be removed from the Veteran Corporation.  They have enough to do trying 
to accomplish their primary mission, and given to Labor.

And last but not least, we would encourage you to add to this Committee the 
National Governors Association between the State Department of Educations and 
the National Governors.  If they are not going to make it work in approval at 
the State level, it is not going to work which is the problem with implementing 
the small business flexibility you allowed in legislation two years ago.

Lastly, in regard to the Veterans State Employment Improvement Grants of 2006, 
VVA remains strongly opposed to part-time DVOPs and, in fact, part-time LVERs.  
We never get 50 percent of those people.  The way to accomplish that in our view 
is to have people who are itinerant when you have small offices who go from 
office to office and then you can guarantee more fully that you are getting a 
bang for the buck out of the staff time you are actually devoting.

We very much agree that training should be a requirement for DVOPs and LVERs who 
come on board, but we would urge you to shorten that time from three years to 
two years and also include the managers of the local offices.  Many of them just 
never go for training and they do not even know what the law is much less have a 
commitment to fulfilling it.

The other thing we would note is the Jobs for Veterans  Act never has had 
implementing regulations published by the Secretary of Labor.  Therefore, there 
is only the flexibility part of the Act that has been implemented and not the 
accountability of the Act.

And we would encourage you to follow-up on the GAS study on this issue with 
Secretary Chow to ensure that there is regulation and enforcement of all of the 
accountability parts of that Act which passed four years ago now.

And very much agree with the Statistical Metropolitan Statistical Area Standard, 
Metropolitan -- the DEMO Project for three million, and that is something that 
needs to be done.

Very last, in 2000, this Committee took the lead in revamping the system that 
would hold the States harmless.  In other words, no DVOPs or LVERs would have 
been laid off and, yet, we would move towards the money that goes to the State 
Workforce Development Agencies following performance.  And it failed at the very 
last minute in September of 2000.

We are still very much in favor of that and, frankly, do not believe anything 
else is going to start to improve the workforce development system for veterans 
in this country.  And it is the key readjustment program for veterans returning 
from OIF, OEF, and we owe them nothing less than to take the steps necessary to 
help them find meaningful work at a living wage.

Mr. Chairman, Ms. Herseth, thank you very much.

MR. BOOZMAN.  Thank you, Mr. Weidman.

One thing, if it is okay with Ms. Herseth, Mr. McCoy, he mentioned the fiscal 
concerns overriding the Prosthetic Committee.  Can you comment about that?

MR. WEIDMAN.  Well, we have -- 

MR. BOOZMAN.  I was going to get Mr. McCoy to -- 

MR. WEIDMAN.  Sir?

MR. BOOZMAN.  Mr. McCoy is still here.  I was going to get him to comment from 
the -- 

MR. WEIDMAN.  There is actually an instance now where I am collecting the names 
of veterans, although a lot of them are afraid to come forward in VISN 2 -- 

MR. BOOZMAN.  Okay.

MR. WEIDMAN.   -- where the Prosthetics Committee met.  There are three people 
on that.  All three are clinicians.  And the individual who is from accounting 
was sitting there and nixed the replacement sea legs for the veterans who were 
amputees, Vietnam veterans, because of fiscal concerns.

MR. BOOZMAN.  Okay.  Mr. -- 

MR. WEIDMAN.  It would give them another regular leg but not another sea leg, 
and their original sea leg had worn -- 

MR. BOOZMAN.  Okay.

MR. WEIDMAN.   -- had become worn out.

MR. BOOZMAN.  Mr. McCoy, will you comment about that and tell us what is going 
on.

MR. MCCOY.  I do not believe I can comment in regards to the loss of the 
prosthetics, that not being approved.  But as far as the original question in 
regards to special adaptive housing, as much as one has to do with the other, I 
believe what Rick is talking about is not something that would cause us to 
disallow a request for special adaptive housing.

MR. BOOZMAN.  Okay.

MR. MCCOY.  The person has the loss or loss of use and the entitlement is there.

MR. BOOZMAN.  Okay.  I think as a Committee, that is something that we would 
like for you to follow-up on and -- 

MR. MCCOY.  Okay.

MR. BOOZMAN.   -- tell us what -- does that come out of the RBA account?

MR. MCCOY.  Yes, sir.

MR. BOOZMAN.  Okay.

MR. MCCOY.  I will be glad to -- 

MR. BOOZMAN.  Thank you for your help.

MR. WEIDMAN.  Mr. Chairman, we were not saying it is a matter of policy.  It has 
to do with quality assurance at the local level.  And the national policy is 
very clear.  It is the quality assurance at the VA medical center level that is 
sometimes lacking.

MR. BOOZMAN.  And thank you.  And I appreciate your bringing it up.  Certainly 
that is something that all of the members of this Subcommittee, all of the 
members of the Committee period are concerned about those kind of things.  So 
thank you.

Mr. Brown.

STATEMENT OF MORGAN BROWN

MR. BROWN.  Good afternoon, sir, and Ranking Member Herseth.  On behalf of the 
Military Coalition and its five and a half million members, I want to express 
our views on the legislation under consideration today.

Before I begin with my comments, we support all five pieces of legislation.  In 
the interest of moving things along, I am just going to take a moment to comment 
on two of them.

House Resolution 4791 aims to help disabled veterans return to the normalcy of a 
home life by expanding eligibility for VA adaptive housing assistance.  And the 
increases proposed in this draft bill as well as the indexing are long overdue 
and, therefore, the Military Coalition supports its passage.

The Military Coalition also supports the accelerated payment of the Montgomery 
GI Bill benefit.  The payment structure that is currently in place is outdated 
and was designed for veterans pursuing four-year degrees at universities.
The draft bill entitled GI Bill Flexibility Act of 2006 would accelerate payment 
of the GI Bill benefits to accommodate some of the compressed schedule of 
modern-day courses that lead to certification or licensure or in an industry 
that is experiencing a high growth rate.

We endorse this bill, but we do note a couple shortcomings with it.  And, 
unfortunately, this worthy Montgomery GI Bill improvement would be available 
only to active-duty veterans and not to the Guard and Reserve as was previously 
noted.

Additionally, the proposed flex benefit would be employ and accelerated burn 
rate of 1.5 months entitlement for the up-front payments, meaning the 
individuals that take advantage of the provision would ultimately lose a portion 
of their overall entitlement.

Obviously this change will benefit some individuals and we cannot discount its 
value in that regard.  However, the limitations I have described are unfair and 
limit the Montgomery GI Bill's ability to make an impact on all veterans in this 
area.

And, finally, in regards to the proposed amendment to House Resolution 3082, we 
join with our peers and express concern that by not establishing a standard 
rather than a goal, the government's past record of meeting goals is pretty poor 
and we would prefer putting some teeth into this legislation and making a 
standard that must be met versus a goal that could be easily ignored.
And the Military Coalition expresses its profound gratitude for the 
extraordinary work this Subcommittee does on a day-to-day basis.  And on behalf 
of the military veterans and their families, I thank you.

MR. BOOZMAN.  Thank you, sir.

[The statement of Morgan Brown appears on p. 102]

MR. BOOZMAN.  Mr. Hilleman.

STATEMENT OF ERIC HILLEMAN

MR. HILLEMAN.  Thank you, Mr. Boozman, and Ranking Member, Ms. Herseth.
Mr. Chairman and members of the Subcommittee, on behalf of the 2.4 million men 
and women of the Veterans of Foreign Wars of the United States of America, thank 
you for this opportunity to testify today and present our views on the pending 
legislation.

Our positions on the bills are as follows:
House Resolution 3082, the Veterans Owned Small Business Promotion Act would 
require nine percent of all Department of Veterans' Affairs' procurement 
contracts be awarded to veterans.  We enthusiastically support this bill.  Job 
security and business development are among our highest goals for our veterans.
We prefer the original language of this bill in place of the amendment that has 
been offered.  The original bill would do much more to further the interest of 
veterans than the amendment.

House Resolution 4791, Disabled Veterans Adaptive Housing Improvement Act would 
increase the matching grant for disabled veterans' home purchase and 
modifications.  The current grant maximum is $50,000.  The new amount, $60,000, 
may go far in rural areas of America, but veterans residing in major population 
centers, as pointed out by other members on this panel, would not go quite as 
far.  We ask Congress to consider a regional housing cost average to determine 
the maximum grant amount.

The draft bill entitled the Veterans Employment State Grant Improvement Act 
seeks to improve performance and increase the accountability of veterans' 
employment representatives under the Department of Labor.  We vigorously support 
this bill, but ask Congress to consider a more timely implementation of its 
prescribed measures.

Taking three years to phase in performance evaluations, waiting two years to 
phase in licensing and certification on a State level and requiring training 
sessions sometime within the first three years of employment of an employment 
representative should all be accomplished in a shorter period of time.

The draft bill entitled GI Flexibility Act is written to expand licensure and 
certification, thus allowing lump sum payments in areas of industry experiencing 
critical shortages that are deemed high growth by the Secretary of Labor.
The VFW has long called for expansion of licensure and certification programs 
which lead to rewarding careers, but we have several concerns about this 
legislation.  We are wary that some industries included in this expansion are 
overly broad and that in some cases would lead to careers that lack long-term 
employability.

The Department of Labor's definition includes areas of hospitality and retail.  
These can provide rewarding careers, but we do not believe these industries are 
the target areas of this legislation.  We feel the GI Bill should be a key to 
unlock a career, not just a door to another job.

Our second concern is oversight.  With such a wide expansion of lump sum 
payment, we can envision unscrupulous companies attempting to take advantage of 
veterans.  Many companies and businesses will rise to meet the demand for short-
term training programs.  We must be cautious.  With this invaluable educational 
benefit, we support the idea behind the bill, but cannot support the draft 
legislation as written until these concerns are met.

The draft bill entitled Veterans Certification and Licensure Act would establish 
a Committee to bridge the gap in certification, credentialling, and licensure 
for troops transitioning from active duty into the workforce.  We believe 
military experience in many fields, including heavy equipment operation, 
transportation, electronics, mechanical repair, and construction, are all highly 
transferrable.  The VFW strongly supports the enactment of this bill and the 
creation of the Committee.

Thank you, ladies and gentlemen, for this opportunity to present the VFW's views 
before this Committee, and it has been my pleasure and I welcome all questions.

MR. BOOZMAN.  Thank you.

[The statement of Eric Hilleman appears on p. 108]

MR. BOOZMAN.  Mr. Greineder.

STATEMENT OF DAVID GREINEDER

MR. GREINEDER.  Thank you, Mr. Chairman, Ranking Member Herseth.  Thank you for 
inviting AMVETS to testify before you today.

House Resolution 4791 would increase the amount of adaptive housing assistance 
available to the disabled veterans.  This bill would be very helpful to veterans 
who sustained traumatic life-altering injuries so they may live their lives as 
independently as possible.  AMVETS fully supports this legislation.

The Veterans Employment State Grant Improvement Act draft bill would implement 
professional qualification for DVOP and LVER programs.  The heart and soul of 
the Department of Labor Veterans' Employment and Training Service is the 
dedicated staff tasked with facing the employment challenges of veterans.  
AMVETS supports the goals of this legislation.

The GI Flexibility Act draft bill would enhance GI Bill educational benefits for 
veterans wanting to use tuition assistance for certain training programs.  This 
bill will make short-term, high-cost training programs more affordable to 
veterans.  This legislation would also help address the serious unemployment 
rate of veterans between the ages of 20 and 24.

Veterans in this age bracket have an unemployment rate of over 15 percent, 
nearly double the rate of nonveterans in the same group.  Accelerating the 
benefit would help place veterans in a good-paying, long-term, and secure job.  
AMVETS endorses this legislation.

The Veterans Licensing and Credentialling Act draft bill would establish an 
Advisory Committee to review and improve certification and licensing procedures 
for veterans.  The Advisory Committee's overall goal will be to facilitate 
servicemembers with a seamless transition back into civilian life.

AMVETS believes there is no greater responsibility of DoD and VA to properly 
take care of returning soldiers and to provide them with as many tools as 
possible to assist them back into civilian life.  Therefore, we support the 
goals of this legislation.

The proposed amendment to House Resolution 3082 seeks to increase VA contracting 
opportunities for service-connected disabled veteran small businesses.  The 
amendment will require VA to establish a goal for each fiscal year for such 
contracts.

AMVETS supports the amendment, but we do note, however, that Public Law 106-50 
established similar goals and ideas which have not yet been met.  AMVETS would 
really like to see full implementation and enforcement of 106-50 before any 
additional legislation is passed.

In closing, Mr. Chairman, AMVETS looks forward to working with you and others in 
Congress to ensure employment opportunities of all America's veterans are 
strengthened and improved.

Thank you again.  This concludes my testimony.

MR. BOOZMAN.  Thank you very much.  Thank all of you.

[The statement of David Greineder appears on p. 112]

MR. BOOZMAN.  A couple things.  Mr. Blake, you mentioned the automobile 
adaptation.  Again, I think that is something that is - Counsel is telling me 
that that is not our jurisdiction and, yet, I agree with you.  That is probably 
something that needs to be looked at.  I think what we can do is push that over 
to the appropriate staff and members that it is and see if we can help in that 
regard.

One thing I think you know that our commitment on this nine percent thing and 
trying to get this squared away that we really are committed to doing that.  And 
so what we have tried to do is figure out what is another approach in order to 
get that done.

And so, as you know, in this bill, it basically says that if you do not get on 
the stick that the senior contracting officials will not receive award or are 
not eligible for award in doing that.  And so it is a different way of doing it.  
And I think that that has some merit in trying.  It is being tried in different 
ways.

And we have got two things that we are facing here.  We have got something that 
we can get done.  And, like I say, I think this is something that is a different 
approach, but I understand your concern and I have the same concern.  And I know 
that the minority has the same concern also.  This is something that we are 
really working hard to get done.  But that is the effort is just approaching it 
a little bit differently.

Ms. Herseth.

MS. HERSETH.  I do not have any questions directly to any one particular 
individual on this panel.  Thank you for your thoughts on all of the bills that 
we are dealing with today.  But let me just comment on the idea of a regional 
index or a regional housing cost variable here on the Adaptive Housing Grant.
I am open to what we might -- I mean, you heard the testimony in the first 
panel, so we first have to figure out, you know, can we find an index that 
everyone seems to agree on.

And I understand certainly and worked with Congresswoman Susan Davis in the last 
Congress as it related to what we were doing not for the Specially-Adapted 
Housing Grants, but the program that just was providing for any veteran.  And we 
worked on some issues of housing for Native American veterans separately.
But, you know, she is from San Diego.  I know that the costs of home ownership 
in San Diego are probably a lot higher than they are in Aberdeen, South Dakota.  
But in Sioux Falls, South Dakota, the housing market is much higher as it is in 
Rapid City, South Dakota than the rest of the State.

So when you talk about State by State, you will end up with veterans who may be 
living in larger communities in these States who will then be at a disadvantage 
even though they may face some of the same situations in terms of higher housing 
costs as a fellow veteran who lives in a different State or a different region.
I mean, the broader issue here is the availability of affordable housing period 
for anybody regardless of the size of the community.  But I am open to making 
sure whether it is in establishing the amount of the grant itself, although 
right now in this budget environment, you know, we are just trying to get kind 
of the overall increase for everybody.

But then at that point, let us look at a fair regional index if we can find the 
consensus that perhaps marries the variables of region, of size of community, of 
maybe some of what our real estate friends can help us do in terms of various 
housing markets that will allow for a fair indexing of that benefit rather than 
some arbitrary issues that have developed over time on a regional basis that do 
not reflect the size and growth of certain communities in perhaps more rural 
regions, but, yet, a growing community that lacks affordable housing.
So I appreciate the comments that you have made in that regard as to the overall 
amount of the grant as well as what we do for the index, whether it is a 
national uniform average or some sort of regional index that is currently 
available or one that we could work to construct.  But that is going to be, you 
know, a tougher task.

And so I would be interested to hear your thoughts on the prospect of being able 
to move this forward and increasing the overall level utilizing a national 
uniform average right now versus maybe taking more time to accommodate some of 
the legitimate concerns that you have raised or manners in which we could 
improve the grant for veterans in different geographic areas.

MR. BLAKE.  Ms. Herseth, I would say that this is an issue that is probably 
nearer and dearer to PVA's heart than any other organization given that our 
membership probably is the highest percentage user of the grant due to the 
nature of our membership's disabilities.  On its face, I agree with all of the 
ideas about a regional index.  I think it only makes sense given the difference 
in cost of living in every area around the country.

The IB does not actually recommend that type of index or that variable in an 
index because we also recognize to get to that point, we need an index in the 
first place.  There needs to be some kind of annual adjustment in the grant in 
the first place.

It seems that just that principle in itself makes sense.  We get cost of living 
adjustments for everything else under the sun, yet something that probably has 
the most impact on these veterans' lives is not adjusted.  And this is probably 
the most significant and certainly the most expensive thing that these veterans 
will ever purchase in their lifetime in all likelihood.

I would suggest that we will have to, you know, work this out over time.  But if 
we could get an index enacted in the first place, I would say we have made a 
great leap forward in improving this benefit.

I listened to Secretary Mansfield say that he would be willing to work with the 
Committee every year to ensure that the grant is increased to meet the need.  
Well, it sounds like to me that is saying we are willing to spend more of our 
man hours and money to try to help you develop something that an index would do 
anyway.  So I think that makes the argument for why an index is necessary.

MR. WEIDMAN.  I would say move forward with the floor that you have in the bill 
now and get that established and then look beyond that.
The National Association of Home Builders keeps housing costs on a county-by-
county as well as standard metropolitan statistical area basis and then use that 
as an add-on to raising the national floor, if I may be so bold as to suggest to 
you all.

MR. LOPEZ.  Mr. Chairman, you commented on performance review.  I believe the 
consensus is not -- we applaud performance review.  The question is is that we 
have had six years of goals from the Department of Veterans' Affairs.  They have 
never even come close to meeting them.  And we have never seen indications where 
even their data when they report is reliable.

So you can understand our concern, all of us, with the absence of specific, 
enumerated, legislated goals.

MR. BOOZMAN.  Thank you all very much.

I think Rick has a special guest with him today.  I have got three daughters.  
And his daughter, Marjorie Anna Weidman is here.  And I have been watching her.  
She has just been excellent.  It is good to have you here.  We appreciate you 
sharing your daddy with us for a little bit.

Again, we do appreciate the testimony.  They are very informative and certainly 
it looks like we have got a little bit of work to do before the markup in May.  
But we want to assure all of you, all of the stakeholders, that we really do 
value your input as we go forward.

So if there is nothing further, the meeting is adjourned.
[Whereupon, at 3:33 p.m., the Subcommittee was adjourned.]


</pre></body></html>
